2311 Douglas Street

COCKLE

Le g al Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 Nos. 19-251, 19-255

AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF CALIFORNIA,
Respondent.

THOMAS MORE LAW CENTER,
Petitioner,
v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF CALIFORNIA,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 25th day of September, 2019, send
out from Omaha, NE 3 package(s) containing 3 copies of the Brief of the Public Interest Legal Foundation, Center for
Constitutional Jurisprudence, Foundation for Michigan Freedom and Texas Public Policy Foundation as Amici Curiae in
Support of Petitioners in the above entitled case. All parties required to be served have been served by third-party
commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
J. CHRISTIAN ADAMS
KAYLAN PHILLIPS
Counsel of Record
PUBLIC INTEREST LEGAL FOUNDATION
32 E. Washington St., Ste. 1675
Indianapolis, IN 46204
(317) 203-5599
kphillips@publicinterestlegal.org

Subscribed and sworn to before me this 25th day of September, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . Le Qvdrow- ,

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38740
Service List

Derek L. Shaffer

Quinn Emanuel Urquhart & Sullivan, LLP

1300 I Street NW, Suite 900

Washington, DC 20005

(202) 538-8000

derekshaffer@quinnemanuel.com

Party name: Americans for Prosperity Foundation

John J. Bursch

Alliance Defending Freedom

440 First Street, NW

Suite 600

Washington, DC 20001

(616) 450-4235

jbursch@adflegal.org

Party name: Thomas More Law Center

Aimee Athena Feinberg
California Department of Justice
1300 I Street

Sacramento, CA 95814

(916) 210-6003
Aimee.Feinberg@doj.ca.gov
Party name: Xavier Becerra
